HHS/OIG, Audit -"Review of Medicare Bad Debts for Jackson Memorial Hospital for the Fiscal Year Ended September
30, 1999,"(A-04-02-02015)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Bad Debts for Jackson Memorial Hospital for the Fiscal Year Ended September 30, 1999," (A-04-02-02015)
October 7, 2002
Complete
Text of Report is available in PDF format (2.42 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that of the $707,830 claimed for reimbursement as inpatient Medicare bad debts on Jacksons
Fiscal Year 1999 cost report, $157,179 did not comply with the Medicare reimbursement criteria and was therefore unallowable.  Many
of the unallowable bad debts resulted from the hospitals not making collection efforts on patients who were not indigent.  We
also found instances of clerical errors, duplicate claims, and inadequate documentation to support that patient indigency
determinations were made or that collection efforts were made on indigent patients.  We recommended that Jackson establish
automated procedures and additional policies to improve their bad debt reporting practices.  We also recommended that
the hospital file an amended cost report for FY 1999 and reduce allowable bad debts claimed by $157,179.